No.

In the
Supreme Court of the United States
HUPING HU, MAOXIN WU
Petitioners,
v.
DREW HIRSHFELD, Acting Under Secretary of Commerce for Intellectual
Property and Director of the United States Patent and Trademark Office,
Respondent

On Petition for a Writ of Certiorari
to the United States Court ofAppeals
for the Federal Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Huping Hu, Petitioner, Pro Se, certify that
the Petition for a Writ of Certiorari in the above-referenced case contains 8,942 words, excluding
the parts of the petition exempted by Supreme Court Rule 33.1(d).
Pursuant to 28 U.S.C. ยง 1746,1 declare under penalty of perjury that the foregoing is true
and correct.
Executed on August

2021.

Huping Hu
Petitioner, Pro Se
25 Lubber Street
Stony Brook, NY 11790
(631)678-1864
hupinghu@quantumbrain.org

\

*

.r

i

